audit report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grants to the San Antonio, Texas, Police Department
GR-80-99-013
May 21, 1999
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of the grant awarded by the Office of Community Oriented Policing Services to the City of San Antonio Police Department.  The purpose of the grant is to enhance community policing.  The City of San Antonio was awarded a $3,225,000 Accelerated Hiring, Education, and Deployment (AHEAD) Grant to hire 43 police officers.
	
	We reviewed the City of San Antonio's compliance with seven essential grant conditions.  We found that the grantee was in compliance with six of the seven conditions.  We also identified the following discrepancies:

The first Financial Status Report was not submitted, and two reports were submitted late.

	All of the Financial Status Reports did not accurately reflect the financial activity of the grant because unallowable costs were included in the total outlays for each reporting period.

This grant has ended; therefore, we make no recommendations for the reporting discrepancies, and this report is issued closed.

	These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in 
Appendix I.